NRC: OIG/97A-16 - NRC Safety Culture and Climate Survey - 1998
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1998
> NRC Safety Culture and Climate Survey
OIG/97A-16 - NRC Safety Culture and Climate Survey - 1998
Office of the Inspector GeneralNRC's Organizational Safety Culture and Climate SurveyExecutive SummaryJune 1998
See also:
Statistical Report Volumes
Briefing Transcript
Slides
Executive Summary Contents:
SURVEY DESIGN
INTERVIEW FINDINGS
Strengths of NRC's Safety Culture
Areas of Difficulty for NRC's Safety Culture
SURVEY DEVELOPMENT
SURVEY CATEGORIES
SURVEY ADMINISTRATION
OVERALL CATEGORY SCORES
COMPARISON OF NRC WITH U.S. NATIONAL NORM
COMPARISON OF NRC WITH U.S. TRANSITION COMPANIES NORM
COMPARISON OF NRC WITH U.S. GOVERNMENT RESEARCH AND TECHNOLOGY COMPOSITE
INTERNAL COMPARISONS
LOCATION COMPARISON
OFFICE COMPARISON
REGION COMPARISON
JOB FUNCTION COMPARISON
JOB CATEGORY COMPARISON
GRADE LEVEL COMPARISON
LENGTH OF SERVICE COMPARISON
WRITTEN COMMENT THEMES
REGIONS:
HEADQUARTERS:
CONCLUSION
Key Strengths to Maintain
Key Areas for Improvement
SURVEY DESIGN
The Office of the Inspector General engaged International Survey Research (ISR) to conduct a Safety Culture and Climate Study of the United States Nuclear Regulatory Commission. The study consisted of a review of the existing research on safety culture and climate, a qualitative design phase where a random sample of NRC employees and managers were interviewed, and a quantitative component consisting of a survey administered to all NRC employees. The interviews, along with ISR's review of the safety culture and climate literature, served as the basis for designing the survey which included both selected items from ISR's normative database as well as tailored items to address the unique topic of NRC's Safety Culture and Climate.
After a brief review of the qualitative interview findings, this executive data summary will highlight the quantitative findings of NRC's survey results. First, the findings will emphasize the overall results, looking at specific areas of strength and opportunities for improvement for NRC. Category-level results will be compared with ISR's U.S. National and Transition Companies Norms as well as the U.S. Government Research and Technology Composite. The summary will then report internal comparisons for regions, headquarters, job functions, job categories, job grades, and years of service. Comment themes and examples will also be provided on the topics most frequently written about by employees. Finally, a summary is provided which highlights the findings of the Safety Culture and Climate Study.
INTERVIEW FINDINGS
The qualitative design component of the OIG's NRC Safety Culture and Climate survey included group and one-on-one interviews with a cross-section of Nuclear Regulatory Commission employees and managers. ISR conducted these interviews between October 23 and November 12, 1997. A total of 173 Administrative/Clericals, Non-Engineering Specialists, Engineers, Inspectors, Managers, Branch Chiefs, Directors and Executive Directors, and Commissioners (including the Chairman) were interviewed as part of the sample.
Interviewees were selected at random from Region I - King of Prussia, PA (N=43), Region III - Lisle, IL (N=48), and Headquarters - Rockville, MD (N=82). The following is a breakdown of the number of interviewees by job level:
REGIONS (I, III)
NUMBER OF EMPLOYEES
Branch Chiefs/Managers
20
Administrative/Clericals
26
Non-Engineering Specialists
22
Engineers/Inspectors
23
Total - Regions
91
HEADQUARTERS
NUMBER OF EMPLOYEES
Directors/Managers
20
Branch Chiefs/Section Managers
12
Commissioners
3
Administrative/Clericals
11
Non-Engineering Specialists
12
Engineers/Other Technical
24
Total - Headquarters
82
Total - NRC
173
Major themes that emerged from the interviews were as follows:
Strengths of NRC's Safety Culture
1. The NRC workforce possesses exceptional technical skill. Overwhelmingly, management and staff say the technical knowledge of their NRC colleagues has been essential to the agency's success.
2. The workforce is very dedicated to NRC's mission. Employees at all levels recognize their colleagues are very conscientious and dedicated to the safety mission of the NRC.
3. The NRC, as an agency, is committed to protecting public safety.
4. New senior managers are viewed as very capable (strong hands) by employees.
5. Employees feel the agency is, without question, the best nuclear regulator in the world. Warts and all, the NRC is still the model for the world with regard to nuclear power regulation and research.
6. Overall, the NRC is well-run compared with other government agencies. The NRC is seen by most as an effective regulatory organization with a proven track record of safety for many years.
7. NRC facilities and tools/equipment are excellent. The NRC offices and work
tools (e.g., computers and systems) are cited as being real boosts to productivity.
Areas of Difficulty for NRC's Safety Culture
1. Employees report high levels of uncertainty and confusion regarding new directions in regulatory practices and impending changes facing the agency.
1a. Employees require further guidance from the commission on how to change the agency. Many employees report a "gap" between the objectives articulated by the commission and the implementation to achieve these objectives.
1b. Many employees/managers are unsure how "risk-informed" regulation will impact their work.
2. Many employees say there is fear among the staff of making a mistake, leading to a growing "cya" mentality.
2a. Employees report that communicating problems results in a "shoot-the-messenger" syndrome.
3. Employees are experiencing increasing workloads, decreasing staffing levels and little prioritization by management.
4. Many managers lack broad management skills and training. Additional training is needed for managers to become better leaders according to staff.
5. NRC's technical prowess will be significantly impaired due to retirements. Very little "new blood" is coming into the agency with technical expertise.
6. Employees describe the NRC as having a very hierarchical, top-down management approach. Employees report increasing levels of micro-management. They feel this reflects a lack of respect and trust in their depth of knowledge and expertise.
7. The communications between various units can be difficult. Communications within the branches/sections is often cited as very good, but perhaps at the expense of inter-divisional dialogues.
8. There is a perception that too much time is spent on paperwork that may not contribute to the safety mission of the organization.
9. NRC staff perceive fewer career opportunities as the industry declines and agency budgets shrink.
10. Technical training was traditionally a strength, but the funding is perceived as dwindling.
11. The NRC, in the employees' eyes, has not defended itself well in the public arenas.
12. Employees complain about the lack of continuity in how the regions are being managed.
SURVEY DEVELOPMENT
Based on ISR's research into safety culture, the qualitative interview findings, and ISR's experience in other organizations, a pretest version of the survey instrument was developed and tested with a cross-section of NRC employees. The pretest survey contained both ISR normed and NRC tailored questions. Survey pretest sessions were conducted at the NRC Headquarters - Rockville, MD, Region IV - Arlington, TX, and at Region II - Atlanta, GA.
The survey questions were grouped into 15 categories representing the major topics of the NRC's Safety Culture and Climate. A list of the categories, along with a brief description of the items each category contains, is provided on pages 5 and 6. For each category, the average favorable response (percentage of employees responding favorably to a given set of questions) was calculated (please refer to the graph on page 7). Comparisons to ISR's U.S. National Norm, Transition Companies Norm, and the U.S. Government Research and Technology Composite beginning on page 8.
SURVEY CATEGORIES
1. Work Organization: Assesses clarity of job responsibilities, duplication across work units, the amount of staff to handle the workload, and the amount of stress employees experience on the job.
2. Operating Effectiveness: Evaluates the prioritization, distribution and efficiency of work, as well as computer systems support.
3. Management Leadership: Probes employees' views of the various management levels within the NRC, including management style, management direction, confidence in management decisions, and the amount of effort by management to implement "risk-informed methodologies".
4. Supervision: Examines employee perceptions of their immediate supervisor's technical competency, level of authority, availability, communication skills, and people management and team building skills.
5. Working Relationships: Measures the level of cooperation, respect, and teamwork among employees, work units, divisions, office/regions, and headquarters.
6. Employee Involvement: Assesses the amount of authority employees have to do their job, the trust they receive from management, openness to discuss differing opinions, and whether NRC's climate allows one to be innovative.
7. Communication: Evaluates the availability of information about matters affecting the agency, and information employees need to do their job. Also assesses the openness of speaking up in the NRC. Measures employees' understanding of the goals and objectives of their work unit, division, office/region, and NRC as a whole. In addition, employees' awareness of NRC's plans, performance, and mission are evaluated.
8. Training and Development: Assesses the availability and quality of training, knowledge of safety concepts, recruitment and retention of talented employees, and the development of employees to their full potential.
9. Future of NRC: Measures employee concerns over reductions-in-force, changes in management, technology, regulatory methodology, the federal government, the future of their work unit, the NRC, and the industry, as well fear of their skills becoming obsolete.
10. Job Satisfaction: Examines employees' satisfaction with their job being worthwhile, important to the NRC, and providing a sense of accomplishment.
11. Employee Commitment: Probes employee's willingness to recommend the NRC as a good place to work, whether they feel they are a part of the agency, and their pride in working for the NRC.
12. NRC Mission: Assesses the clarity of NRC's mission and whether employees believe management decisions are consistent with the mission. Employees are also asked to rate NRC's success in putting the "principles of good regulation" into practice.
13. NRC Image: Examines employee perceptions of whether NRC is highly regarded by its various stakeholders, NRC's effectiveness in communicating to the general public, and whether all employees are held to the same standards of ethical behavior.
14. Organizational Change: Evaluates employees' views on how the NRC's regulation of its licensees has changed in the past year. Employees are also asked to rate how the following have changed from the past and will change in the future: The way people are managed day to day, communication, the quality of work produced, productivity, the public image of the agency, and NRC as a whole.
15. NRC Safety Commitment: Assesses employee views on NRC's commitment to public safety, the quality of work produced, and whether employees are encouraged to communicate ideas to improve safety/regulations/operations. Opinions are also solicited regarding the differing professional opinion process and risk-informed, performance-based regulation. Employees also are asked to rate the amount of time the NRC spends responding to allegations, and senior management's role in improving regulatory effectiveness.
SURVEY ADMINISTRATION
The OIG's NRC Safety Culture and Climate Survey was administered to all employees and managers from February 27 through March 31, 1998. Of the 3,013 employees asked to participate, 1,696 completed valid surveys for an overall return rate of 56%. This return has a precision of +/- 1.6% and is more than sufficient to provide a reliable and valid measure of the current attitudes and perceptions of NRC employees and managers.
OVERALL CATEGORY SCORES
The average favorable response score for each category (percentage of employees responding favorably to a given set of questions) was calculated and is provided below. Eight of the 15 categories are majority favorable (greater than 50%), the most favorable being Job Satisfaction (73%), Supervision (67%), Working Relationships (63%), and Employee Commitment (60%). Responses are exactly 50% favorable for two categories, Employee Involvement (50%) and Organizational Change (50%). Five of the categories fall below majority favorable, with the least favorable being NRC Image (38%), Future of NRC (42%), and NRC Safety Commitment (44%). The survey categories are shown below, ranked from most favorable to least favorable.
Overall Category Scores for NRC Overall
*Favorable scores do not include the percent uncertain or the percent unfavorable.
COMPARISON OF NRC WITH U.S. NATIONAL NORM
An ISR norm is a weighted composite of employee responses categorized by nation, industry, function, or performance. The first norm NRC is compared with is the U.S. National Norm. This norm is comprised of 162,270 weighted cases representing all industry sectors in the United States contained in the Fortune 500.
Compared with U.S. National Norm
The overall category profile for the NRC is generally at or below the U.S. National Norm. One category, Work Organization, scored significantly more favorable than norm (+3%), while 5 categories are not significantly different from the Norm. Seven categories fall significantly below the norm in favorability, with the largest differences in NRC Image (-17%), Employee Involvement (-7%), and Management Leadership (-6%). The NRC Image scores reflect the employees' view of the regard the general public has for the NRC.
COMPARISON OF NRC WITH U.S. TRANSITION COMPANIES NORM
Due to the significant changes facing the NRC currently and in the foreseeable future, the NRC Safety Culture and Climate survey scores were also compared with the U.S. Transition Companies Norm. This norm is comprised of organizations undergoing major change. Criteria for inclusion in this norm include: acquisition, major restructuring including downsizing, deregulation of the industry, death of CEO/founder/top managers, key patent expiration, product or operating disaster, e.g., airline crash, product tampering, etc. The Transition Norm currently contains 150,500 weighted cases representing many industry sectors.
Compared with U.S. Transition Companies Norm
When comparing the NRC survey scores with the U.S. Transition Norm, nine categories score significantly above the Norm with the most favorable differences in Operating Effectiveness (+12%), Communication (+7%), Training and Development (+7%), and Future of NRC (+6%). Just one category falls significantly below the Norm - Job Satisfaction (-3%). Taken together, the scores indicate the NRC employees are more favorable than what would typically be observed in private sector organizations undergoing significant change.
COMPARISON OF NRC WITH U.S. GOVERNMENT RESEARCH AND TECHNOLOGY COMPOSITE
NRC Safety Culture and Climate survey scores were also compared with the U.S. Government Research and Technology Composite. This composite does not represent as comprehensive a sample as a typical ISR Norm, but is comprised of several large government organizations, including five National Laboratories. The Composite currently contains 29,792 weighted cases.
Compared with U.S. Government Research & Technology Composite
The NRC results are more balanced when compared to the U.S. Government Composite. Scores are significantly more favorable in four categories: Communication (+5%), Management Leadership (+5%), NRC Image (+5%), and Work Organization (+2%). Seven categories are not significantly different from the Composite. Finally, two categories fall significantly below composite scores, Job Satisfaction (-3%) and Employee Involvement (-4%).
INTERNAL COMPARISONS
The following internal comparisons illustrate how various subgroups within NRC (i.e., locations, job functions, job categories, grade levels, and various lengths of service) vary at the category-level average compared with NRC overall.
LOCATION COMPARISON
There is little variation between employee perceptions in the Regions overall (N=572) and Headquarters (N=1,072). For example, in Work Organization, Regions are -3% less favorable than NRC overall, while Headquarters are +2% more favorable. The only significant variation occurs in Operating Effectiveness, where the Regions are -6*% less favorable than NRC overall while Headquarters is +3% more favorable.
Location Comparison
A. Work Organization
I. Future of NRC
B. Operating Effectiveness
J. Job Satisfaction
C. Management Leadership
K. Employee Commitment
D. Supervision
L. NRC Mission
E. Working Supervision
M. NRC Image
F. Employee Involvement
N. Organizational Change
G. Communication
O. NRC Safety Commitment
H. Training and Development
Category
A
B
C
D
E
F
G
H
I
J
K
L
M
N
O
NRC Overall 1988 (N=1,696)
61
52
46
67
63
50
58
49
42
73
60
52
38
50
44
Regions Overall (N=572)
-3
-6*
1
2
0
-1
-1
0
-1
3
-2
0
0
0
1
Headquarters (N=1,072)
2
3
0
-1
1
1
1
0
1
-2
1
0
0
0
0
*A statistically significantly difference.
OFFICE COMPARISON
Among the offices, the Chairman's Office/Commissioners' Offices/OEDO is the most favorable group with eight categories scoring significantly more favorable compared with NRC. When taking the average of all category differences, this group is +18% more favorable than NRC overall. Other offices scoring more favorably on average than NRC overall are: SECY/OIP/OPA/OCA/OCAA/OSP (+8%), OGC (+5%), OIG (+3%), OI/OE (+3%), NRR (+3%) and NMSS (+2%). Offices which scored less favorably on average compared with NRC overall are: OCIO (-10%), HR/SBCR/CSU (-7%), OCFO (-6%), ADM (-6%), AEOD (-6%), and RES (-2%).
Office Comparison
A. Work Organization
I. Future of NRC
B. Operating Effectiveness
J. Job Satisfaction
C. Management Leadership
K. Employee Commitment
D. Supervision
L. NRC Mission
E. Working Supervision
M. NRC Image
F. Employee Involvement
N. Organizational Change
G. Communication
O. NRC Safety Commitment
H. Training and Development
Category
A
B
C
D
E
F
G
H
I
J
K
L
M
N
O
NRC Overall 1988 (N=1,696)
61
52
46
67
63
50
58
49
42
73
60
52
38
50
44
Chairman's OFC/Commisioners' OFCS/OEDO (N=40)
15
24*
23*
16*
14
20*
21*
14
9
23*
29*
22*
13
14
12
OIG (N=37)
3
13
-9
-4
6
1
10
6
3
6
16*
-1
-1
-4
-2
OGC (N=45)
13
21*
3
14*
9
5
10
3
-2
-3
7
-3
1
2
-2
OCFO (N=51)
0
2
-12
-18*
-3
-9
1
-10
-1
-7
-15*
-8
-5
-2
-6
OCIO (N=84)
-9
-3
-16*
-16*
-17*
-10
-10
-10
-11*
-11*
-6
-15*
-4
-8
-11*
ADM (N=47)
-2
-4
-6
0
-8
-13
-2
-6
-13
0
-4
-9
-7
-5
-14
OI/OE (N=32)
3
6
10
16
10
8
5
-3
-3
-13
3
-9
0
6
3
HR/SBCR/CSU (N=31)
-8
-8
-16
-13
-10
-14
-2
-3
9
-10
5
-10
-6
-11
-10
ASLBP/ACRS/ACNW (N=28)
8
12
3
-7
-9
7
6
7
-9
-7
-6
6
-1
-8
2
SECY/OIP/OPA/OCA/OCAA/OSP (N=49)
6
14
5
1
7
10
12
2
7
6
12
14
14*
10
6
AEOD (N=46)
-3
-8
-6
-4
-7
-2
-13
-4
2
0
-11
-6
-5
-14
-2
NMSS (N=160)
-3
-4
3
-3
2
2
1
-1
8*
-4
3
7
6
6
2
NRR (N=330)
5
4
4
3
6*
5
0
4
8
0
2
4
-1
8
3
RES (N=92)
0
2
-2
4
-9
-3
-3
2
-1
1
-4
-6
-6
-4
0
Colored bars indicate a statistically significant difference.
REGION COMPARISON
Among the regions, employees in Region III gave the lowest scores compared to NRC overall, with an average difference of -6% less favorable across all categories. Regions I and II, are both +2% more favorable on average than NRC, while Region IV's category average is equal to NRC.
Region Comparison
A. Work Organization
I. Future of NRC
B. Operating Effectiveness
J. Job Satisfaction
C. Management Leadership
K. Employee Commitment
D. Supervision
L. NRC Mission
E. Working Supervision
M. NRC Image
F. Employee Involvement
N. Organizational Change
G. Communication
O. NRC Safety Commitment
H. Training and Development
Category
A
B
C
D
E
F
G
H
I
J
K
L
M
N
O
NRC Overall 1988 (N=1,696)
61
52
46
67
63
50
58
49
42
73
60
52
38
50
44
Region I (N=159)
1
0
3
2
1
2
2
4
4
1
-2
3
2
1
2
Region II (N=147)
-1
-5
6
5
2
3
2
1
-2
2
2
1
0
6
3
Region II (N=140)
-9*
-12*
-10*
-2
-8
-9*
-6
-3
-3
3
-10*
-5
-1
-7
-4
Region IV (N=126)
-1
-7
4
3
5
-2
-1
-3
-5
5
2
0
0
-1
3
Colored bars indicate a statistically significant difference.
JOB FUNCTION COMPARISON
Compared with NRC overall, Legal is the most favorable function scoring +7% more favorable on average. Scientific is -2% below NRC overall, with its most negative difference in Operating Effectiveness (-8%). Little difference exists on average for Engineering, scoring just +1% more favorable than NRC. Finally, Administrative/ Support's category average is equal to NRC.
Job Function Comparison
A. Work Organization
I. Future of NRC
B. Operating Effectiveness
J. Job Satisfaction
C. Management Leadership
K. Employee Commitment
D. Supervision
L. NRC Mission
E. Working Supervision
M. NRC Image
F. Employee Involvement
N. Organizational Change
G. Communication
O. NRC Safety Commitment
H. Training and Development
Category
A
B
C
D
E
F
G
H
I
J
K
L
M
N
O
NRC Overall 1988 (N=1,696)
61
52
46
67
63
50
58
49
42
73
60
52
38
50
44
Admin/Support
1
5*
-1
-1
-1
-1
-1
2
-2
-4
-3
3
-4
0
-3
Engineering (N=743)
-1
-3
1
2
2
1
0
-2
2
4
3
-2
4
0
2
Legal (N=46)
15*
21*
5
12
12
10
10
12
3
2
-1
11
1
4
4
Scientific (N=230)
-2
-8*
-2
-6
-6
-3
0
-4
0
1
0
-2
0
0
1
Colored bars indicate a statistically significant difference.
JOB CATEGORY COMPARISON
Among the job categories, Senior and Middle Management both score much more favorably than NRC overall with a +21% and +17% average difference, respectively. Line Management is more favorable than NRC by +1%, and Non-Supervisors (the vast majority of the respondent population) is -2% below NRC on average. While it is statistically significant, this pattern of higher management favorability is very common and is found in most U.S. organizations. However, what is interesting about the NRC's scores is the abruptness of the change in scores between Line and Middle Managers.
Job Category Comparison
A. Work Organization
I. Future of NRC
B. Operating Effectiveness
J. Job Satisfaction
C. Management Leadership
K. Employee Commitment
D. Supervision
L. NRC Mission
E. Working Supervision
M. NRC Image
F. Employee Involvement
N. Organizational Change
G. Communication
O. NRC Safety Commitment
H. Training and Development
Category
A
B
C
D
E
F
G
H
I
J
K
L
M
N
O
NRC Overall 1988 (N=1,696)
61
52
46
67
63
50
58
49
42
73
60
52
38
50
44
Senior Management (N=42)
15
16*
30*
18*
14
29*
27*
23*
16*
19*
25*
23*
18*
26*
23*
Middle Management (N=63)
11
5
24*
14*
19*
20*
19*
21*
17*
13*
21*
19*
13*
16*
17*
Line Management (N=233)
-2
-9*
1
-3
4
0
0
2
5
8*
-1
3
-1
1
4
Non-Supervisor (N=1,319)
-1
1
-2
-1
-2
-2
-2
-2
-2
-3
-2
-2
-1
-2
-2
Colored bars indicate a statistically significant difference.
GRADE LEVEL COMPARISON
Among the different job grades, Senior Level/Administrative Law Judge (i.e., SN/AL/AJ) and SES/Executive Level employees (i.e., ES/EX) are +17% and +18% points more favorable than NRC, respectively. GG-11 to GG-12 and GG-13 both score -2% less favorable than NRC while GG-1 to GG-10, GG-15, and Other Grade Levels score +1% above NRC overall. The lowest scoring grade level is GG-14 with an average of -4% below NRC overall.
Grade Level Comparison
A. Work Organization
I. Future of NRC
B. Operating Effectiveness
J. Job Satisfaction
C. Management Leadership
K. Employee Commitment
D. Supervision
L. NRC Mission
E. Working Supervision
M. NRC Image
F. Employee Involvement
N. Organizational Change
G. Communication
O. NRC Safety Commitment
H. Training and Development
Category
A
B
C
D
E
F
G
H
I
J
K
L
M
N
O
NRC Overall 1988 (N=1,696)
61
52
46
67
63
50
58
49
42
73
60
52
38
50
44
GG-1 to GG-10/Other (N=294)
2
8*
3
4
2
-2
3
0
-9*
-5
2
-6
5
4
-2
GG-11 to GG-12 (N=100)
-1
3
-5
-5
-1
-1
2
1
-5
-2
4
-2
-1
-7
-5
GG-13 (N=298)
-3
-4
-2
0
-4
-4
-1
-2
-2
-1
-1
1
-1
0
-1
GG-14 (N=423)
-3
-6*
-6*
-6*
-3
-3
-6*
-5*
0
-4
-7*
-4
-5
-4
-3
GG-15 (N=363)
1
-1
0
1
3
3
0
2
6*
4
0
2
-2
-2
2
Sr Level/Adm Law Judge (N=27)
16
27*
17
16
8
23*
18
11
7
15
33*
19*
13
14
13
SES/Exec (N=117)
11*
9
25*
13*
16*
21*
20*
20*
18*
15*
18*
23*
14*
19*
21*
Colored bars indicate a statistically significant difference.
LENGTH OF SERVICE COMPARISON
Among employees with different lengths of service, those with less than 1 year have the most positive scores compared with NRC overall, +9% and +6%, respectively. This is a frequent finding, and is often called the "honeymoon phase" of new employees.
Employees with five but less than 15 years of service score the lowest on average, down -2% from NRC overall. Taken as a whole, there is very little significant difference based on tenure. This is an unusual finding since most large organizations in the U.S. show a marked increase in favorability as tenure grows beyond 10-15 years, and even more so after 20-25 years. There is, however, evidence from recent surveys of other organizations that this trend of longer-service employees being more favorable is ending. One explanation may be that the tumult many organizations have endured recently has mitigated any "generational" effects on attitudes. In effect, recent events in the organization polarize employees of various tenures to a common point of view. In addition, the unusually high percentage of employees with 10 or more years of service in the NRC may account for the lack of variation among these groups.
Length of Service Comparison
A. Work Organization
I. Future of NRC
B. Operating Effectiveness
J. Job Satisfaction
C. Management Leadership
K. Employee Commitment
D. Supervision
L. NRC Mission
E. Working Supervision
M. NRC Image
F. Employee Involvement
N. Organizational Change
G. Communication
O. NRC Safety Commitment
H. Training and Development
Category
A
B
C
D
E
F
G
H
I
J
K
L
M
N
O
NRC Overall 1988 (N=1,696)
61
52
46
67
63
50
58
49
42
73
60
52
38
50
44
Less Than 1 Yr Svc (N=54)
1
0
12
15*
8
10
11
13
-3
13*
18*
11
14*
-5
10
1 But Less Than 5 Yrs Svc (N=140)
-3
-1
-1
-1
0
-3
2
-1
7
-6
-1
-2
3
0
-2
5 But Less Than 10 Yrs Svc (N=376)
-1
-3
-2
-1
-3
-2
-3
-5
0
-6*
-1
-3
-2
2
-3
10 But Less Than 15 Yrs Svc (N=291)
-2
-2
-2
-2
-2
-4
-2
-3
-3
0
-5
0
0
-1
-2
15 Yrs But Less Than 20 Yrs Svc (N=322)
0
0
-1
-2
-1
0
-1
0
-2
0
-2
0
-3
-3
-1
20 But Less Than 25 Yrs Svc (N=286)
3
0
2
1
3
4
2
5
3
3
1
0
-1
1
3
25 Yrs Svc or More (N=177)
5
9*
6
6
6
8*
5
7
1
6
10*
6
5
4
6
Colored bars indicate a statistically significant difference.
WRITTEN COMMENT THEMES
As part of the survey, employees were asked to write one or two suggestions for improving NRC's Safety Culture and/or Climate. Of the 572 employees in the Regions, 267 wrote comments for a 47% comment rate, and of the 1,072 employees working at Headquarters, 438 wrote comments for a 41% comment rate. Following are the main themes that emerged with representative example comments for the Regions overall and Headquarters.
REGIONS:
The three categories most frequently commented on by employees in the Regions were Management Leadership (97 comments), Operating Effectiveness (68), and Training and Development (55). Example comments begin on the following page.
Comment Highlights for The Regions
Management Leadership (97)
Stop promoting individuals because they have technical prowess. Try promoting because they manage people well! Try promoting because they communicate effectively.
Most SES managers are not qualified for the positions they hold, are focused only on the politics. They are not concerned with the proper resolution of technical issues and don't care about working-level employees. Otherwise, they are great managers.
We have management but few or none of them inspire any kind of FOLLOWING, as would be associated with leadership.
Change the management style at Region III from punitive to positive.
Senior management, both division and regional, need to stop micro-managing and provide the freedom for line managers to decide what is important and needed, consistent with plant safety, and apply the needed resources. We spend entirely too much time in a reactive mode responding to senior-management whims.
Operating Effectiveness (68)
The constant change in administrative processes is inefficient and stressful. The PIM, PPR, and SALP processes have been in a constant state of flux for several years. Each time they change, there is a requirement to go back and put the old information in a new format. This increases the burden on the resident staff at the same time secretarial help has been cut.
The SALP process is a total joke. SES managers go to the site for half a day and listen to the licensee promote themselves. The SES managers then challenge the inspectors for not documenting these positive findings in inspection reports. Inspectors who have knowledge of all the site problems are not listened to concerning the issues.
Region III needs additional FTE in Information Systems Support. Given the agency's move toward electronic document control, it is imperative that sufficient resources be provided to allow the region to fully participate in this change. Also, MIS support to RIs is abysmal.
Emphasis on metrics focuses on quantity, not quality. Should provide better balance soon, before we get so good at maintaining numbers we miss safety issues.
Training and Development (55)
Individual training needs should be addressed instead of standard programs/time allotted. Match the person with training needed instead of a standard program for everyone.
Except in the case of new hires with little or no nuclear background, training is too often provided (technical training) on the basis of who is available, not who would most benefit. There is no effort to reinforce classroom training with on-the-job training. There should be a clearly defined requirement for on-the-job training.
Pathetic! I am three years overdue for a technology recertification but haven't been allowed to go. Other than a simulator refresher, I haven't had a technical training course in [several] years.
I think that the initial training that one receives when coming into the NRC is fairly good. However, continuing training is poor. Once someone understands the technology, an inspector could benefit with other types of training. Specifically, investigative techniques, how to objectively assess management. How to understand the psychology of a licensee. Think we need tools or approaches on how to assess, evaluate human performance. Also, I think continued technical training of inspectors can be improved.
HEADQUARTERS:
The four categories most frequently commented on by employees located in either an office or division were Management Leadership (161 comments), Training and Development (85), Job Satisfaction (82), Supervision (79), and Operating Effectiveness (79). Representative comments for Headquarters employees are presented on the following page.
Comment Highlights
for Headquarters
Management Leadership (161)
Change leadership style from military-command structure to more modern participatory structure based on trusting judgment of subordinates.
The current split decisions by the commission on certain issues will cause uncertainty amongst staff regarding strong leadership at the top.
There is a perception (probably true) that there are power struggles going on at the commissioner level. The current chairman is perceived as someone who wants to run the agency as a single administrator and is constantly at odds with the other commissioners, who want the commission to be the collegial body it is supposed to be.
Due to the recent loss of experienced managers, NRC has placed individuals with little experience into management positions which require leadership. Suggest management training by an outside corporate entity on fundamentals of leadership and effective use of staff.
The current climate has management at all levels too scared to disagree, or even question, direction from above.
Training and Development (85)
The NRC is losing significant technical expertise and does not appear to have a plan to effectively replace it. We are evolving into an organization of contract managers. Downsizing has had a pronounced negative impact on training and developmental opportunities.
Training funds have been severely restricted at a time when we need to train new hires. The idea of training for new job areas, or to meet new challenges, is not being supported. If young employees are not supported in getting advanced degrees, they will become stagnant or move on (i.e., leave NRC).
With the continuing loss of technical expertise and experience base with retirements, it is critical that NRC provide routine and mandatory training for employees.
Up to now, NRC has been very generous with training and development. This has helped foster a climate where safety can be promoted. This is the first year that we've been warned that training funds are being cut. The impact hasn't hit us yet. I hope it isn't severe.
While training is available, staff are often too busy to take advantage of opportunities.
Job Satisfaction (82)
Job satisfaction is adversely affected in view of under-staffing, limited career prospects, and work pressures, leaving no time for training and development.
Many technical staff who are capable and qualified to do technical work are doing nothing but correspondence, including allegations. This can be frustrating to the reviewer and is a waste of resources.
It is obvious that I am dissatisfied. Employee morale is very low. There is no room for advancing, no chance to enhance skills, and the work is not challenging. It was not always this way. But it appears to be getting worse.
I myself enjoy working at the NRC. I do not agree with all its methods, but I am satisfied with my position and pay. I do my best to ignore the political aspects of the job because I don't understand politics, and it wouldn't do any good if I did!
Operating Effectiveness (79)
With the advent of operating plans, there is more emphasis on meeting the numbers, rather than assuring quality. It seems to be coming from the commission levels that senior managers will be judged on number (e.g., did you do the number of SERs you said you would?), with no real regard for the technical quality of work.
I believe the operating effectiveness of the NRC is at the point of being diminished beyond repair if the agency continues to downsize and downgrade the organization. Currently, the trend to do more with less has raised the level of frustration and dissatisfaction for those on the staff that are most frequently called upon to perform the work.
Everyone is spending so much time responding to variations on budget requests, core capabilities, and other instant-response management requests, that the mission of the agency is suffering.
Reorder priorities to emphasize programs and policies that are most effective in assuring licensee commitment to regulatory compliance and safety of operating reactors.
We as an agency would be far more effective if we were more independent with our decisions. We allow outside influences to sway our decisions, such as the public, other agencies, and especially Congress. One meeting with a congressman and our entire approach to a site can change. Not very effective.
Supervision (79)
Supervision, it seems, gets very little management training. There are very few supervisors who can foster team effort and know how to manage people.
I would like to see supervisors and management hold employees more accountable for their poor work products and absenteeism, both of which adversely affect the more conscientious staff members. Problems involving inadequate or unreliable personnel behavior are too often ignored by supervisors and management.
The supervisors micro-manage without being technically or politically helpful.
My direct supervisor (section chief) is required to be technically qualified by degree. This is outstanding, but very, very rare. Most managers in the NRC are not qualified to deal with the issues (but they are SES club members).
CONCLUSION
In conclusion, several themes emerged from the overall results of the survey. The NRC safety culture appears to be bending but not breaking. Scores are close to National Norm in several categories, and well above Transition Norm in most cases. The cause for concern here is that NRC employees have indicated they need more from their leaders, and they may not be patient much longer. Based on the results as a whole, without significant and meaningful improvement in management leadership, employee involvement, and communication, the NRC's current climate could eventually erode the employees' outlook, and eventually their commitment to doing their job. The good news is that employees seem ready and willing to offer their insight and constructive ideas on how to improve their area within the NRC. Ultimately, the challenge may lie in harnessing and integrating the tremendous output of such intense intellectual scrutiny.
Based on the overall results, listed below are the key strengths to maintain and key areas for improvement for the NRC overall. These themes are based on a careful review of both category and individual item-level survey results and employee comments. Criteria used include percent favorable scores, variance from normative data, and areas of special interest to NRC.
Key Strengths to Maintain
1. Eighty-one percent (81%) of the employees believe the NRC's commitment to public safety is apparent on a day-to-day basis.
2. Eighty-one percent (81%) of the employees report sufficient knowledge of safety concepts to apply them in their jobs.
3. Employees say they have a clear understanding of the goals and objectives of their work unit (84%), their division (72%), and the NRC as a whole (65%). These scores are significantly above all comparative norms.
4. Over three-quarters of the employees (77%) indicate they are sufficiently informed about NRC's mission.
5. Most employees (85%) feel the quality of work done is excellent.
6. There is a high level of cooperation among co-workers to get the job done (84%).
7. Most employees (72%) report they have the computer systems support they need to do their job effectively.
8. Over half of the employees (57%) have the opportunity to provide input before
changes are made which affect their work.
Key Areas for Improvement
1. Fifty percent (50%) of the employees say senior management does not provide a clear sense of direction for the NRC.
2. Over a third of the employees (37%) do not feel sufficiently informed about NRC's performance.
3. Almost half (46%) of the NRC employees "Don't Know" the amount of effort the various levels of management are making to implement "risk- informed methodologies."
4. Only 15% of the employees feel NRC senior management is effectively using employee input to improve regulatory effectiveness.
5. More than half of the employees (53%) say the management style at NRC does not encourage employees to give their best.
6. Over half of the employees (52%) say all employees are not held to the same ethical standards.
7. Over half of the employees (56%) are frequently concerned about changes in management.
8. Over half of the employees feel that NRC is not doing a good job of developing people to their full potential (52%), nor retaining its most talented people (54%).
9. Fifty-two percent (52%) of employees do not feel the NRC has a climate where one can challenge the traditional ways of doing things.
10. Only 14% of the employees think the NRC will change for the better in the next year or so, while 23% indicate it will change for the worse.
Page Last Reviewed/Updated Thursday, July 10, 2014
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees